February 4, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Plant Verified Drop Shipment Oversight Reviews – Mid-Island
         Processing and Distribution Center, Melville, NY
         (Report Number FF-MA-11-020)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s performance and conclusions of Plant Verified Drop
Shipment (PVDS) testing at the Mid-Island Processing and Distribution Center, Melville,
NY (Project Number 11BR002FF002), performed December 12, 2010. The Mid-Island
Processing and Distribution Center (P&DC) is in the Long Island District of the
Northeast Area. At the conclusion of FY 2011, we will summarize the results for all
interim reviews in a report to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission, which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.
To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
February 2011 in accordance with the Council of the Inspectors General on Integrity
and Efficiency, Quality Standards for Inspection and Evaluation.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance Plant Verified Drop Shipment   FF-MA-11-020
Oversight Reviews – Mid-Island Processing and Distribution Center,
Melville, NY


Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Guy Sergi, manager, at
781-904-8414, or me at 724-584-5630.

   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
     Friday, 04 February, 2011



Kevin H. Ellenberger
Director, Field Financial – East

Attachment

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                     2
                                          Restricted Information
Fiscal Year 2011 Financial Testing Compliance Plant Verified Drop Shipment         FF-MA-11-020
Oversight Reviews- Mid Island Processing and Distribution Center, Melville, NY




                                APPENDIX A: REVIEW RESULTS

       Site Name                                                   Mid-Island P&DC
       Finance Number-Unit ID                                      355311
       Location Type                                               PVDS
       Scope Period Under Review                                   12/2/2010
       FTC Review Program Version and Date                         FTC PVDS Final 11/24/10
       FTC Team                                                    East




  FTC           FTC Review            Did FTC    Did the                            Did FTC        Did the
 Review            Step                have     OIG have               Did FTC     adequately        OIG
  Step          Description        exceptions/ exceptions/           perform the   document         agree
#/Control                           findings in  findings               step in      its work        with
   #                                this step?  that FTC             accordance    performed        FTC’s
                                     (Yes/No)    did not?                to its      and the         site
                                                (Yes/No)              program?       results?     results*?
                                                                      (Yes/No)      (Yes/No)      (Yes/No)


Workstep      Confirm that         No              No                Yes           Yes            yes
29001/        receiving
104CA70       personnel are
              verifying the
              accuracy and
              completeness
              of PS Forms
              8125 and
              8017
*Based on our review of FTC’s documentation posted to the Blue Share on January 26, 2011.




                                                     3
                                          Restricted Information
